Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    MEDICARE BENEFICIARY 

   ACCESS TO HOME HEALTH 

      AGENCIES: 2004 





                    Daniel R. Levinson 

                     Inspector General 


                       July 2006

                     OEI-02-04-00260

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
    I N T R O D     U C T       I O N
Δ    E X E C U T I V E                   S U M M A R Y                                              



                  OBJECTIVE
                  To assess Medicare beneficiaries’ access to home health care since the
                  implementation of the prospective payment system.


                  BACKGROUND
                  This study is a followup to a series of earlier studies conducted by the
                  Office of Inspector General (OIG) on access to home health for Medicare
                  beneficiaries who are discharged from the hospital to home health care.
                  In 1997, the Centers for Medicare & Medicaid Services (CMS) began
                  implementing an interim payment system, which was replaced by a
                  prospective payment system for home health care in 2000. In 1999,
                  CMS asked OIG to identify any early effects the new payment system
                  may be having on Medicare beneficiaries’ access to home health care.
                  This series is part of OIG’s ongoing commitment to monitor
                  beneficiaries’ access to home health care.

                  The Balanced Budget Act of 1997 required payments for home health
                  care to be made on a prospective basis. The prospective payment rates
                  are determined by the Home Health Resource Group (HHRG), which is
                  a score based on the complexity of a beneficiary’s condition. There are
                  80 HHRGs. Each has a different payment rate that reflects the average
                  cost of providing services to beneficiaries with specified conditions.

                  This inspection is based on data from two sources: structured
                  interviews with 256 hospital discharge planners who have firsthand
                  experience placing Medicare beneficiaries in home health care, and an
                  analysis of 5 years of Medicare data on beneficiaries who were
                  discharged from a hospital to home health care.


                  FINDINGS
                  Most Medicare beneficiaries discharged from the hospital have
                  access to home health care. Seventy-nine percent of discharge
                  planners report that they are able to place all of their Medicare
                  beneficiaries who need home health care in a typical month. This is a
                  statistically significant decrease from our 2001 study, in which 89
                  percent of discharge planners reported being able to place all of their
                  Medicare beneficiaries who need home health care.

                  At the same time, Medicare data show no large changes that may
                  indicate a decline in access for beneficiaries with certain medical


OEI-02-04-00260   MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4       i
E X E C U T I V E                S U     M M A R Y

                  conditions who were discharged from the hospital to home health care
                  in the past 5 years. In our analyses, we define a large change to be
                  1 percentage point or greater or 1 day or longer. A decrease in the
                  proportion of Medicare beneficiaries with certain medical conditions
                  being placed in home health care might indicate that beneficiaries are
                  experiencing a decline in access to home health care. We found no large
                  decreases for 9 of the 10 most common Diagnosis Related Grouping
                  (DRGs) over the past 5 years, and no large decreases for any the 10
                  most common HHRGs over the past 4 years. Similarly, an increase in
                  the average length of stay in the hospital or an increase in the average
                  length of time between hospital discharge and the start of home health
                  services might indicate a decline in access. We found no large increases
                  in either of these measures for any of the 10 most common DRGs or for
                  any of the 10 most common HHRGs since the implementation of the
                  prospective payment system.
                  However, beneficiaries with certain medical conditions or service
                  needs may experience delays. Seventeen percent of discharge
                  planners report having Medicare beneficiaries who experience delays at
                  least sometimes before being placed in home health care. Discharge
                  planners report that Medicare beneficiaries who need intravenous (IV)
                  antibiotics and/or expensive drugs, those who have complex wound care
                  needs, and those who need rehabilitation therapy most often experience
                  delays before being placed in home health care. Discharge planners
                  commonly explain that the cost of providing these services or Medicare
                  reimbursement is the reason for placement delays.
                  No differences in access between beneficiaries in urban and rural
                  areas were detected; however, beneficiaries with certain medical
                  conditions more frequently receive services from nonprofit
                  agencies than from for-profit agencies. We analyzed the proportion
                  of Medicare beneficiaries with certain medical conditions in urban and
                  rural areas to see if there were any large differences, compared to the
                  proportion of all Medicare beneficiaries in home health care in urban
                  and rural areas. We found no large differences between urban and
                  rural beneficiaries for any of the measures we reviewed.

                  We conducted a similar analysis for beneficiaries who received services
                  from nonprofit and for-profit agencies. This analysis showed that, for 5
                  of the 10 most common HHRGs, a greater proportion of beneficiaries
                  received services from nonprofit agencies compared to the overall
                  population. Further, we found that beneficiaries with 6 of the 10 most


OEI-02-04-00260   MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   ii
E X E C U T I V E              S U     M M A R Y


                   common DRGs who received services from for-profit agencies had longer
                   average times between hospital discharge and the start of home health
                   services than those receiving services from nonprofit agencies.


                   CONCLUSION
                   We continue to find that Medicare beneficiaries discharged from
                   hospitals generally have access to home health care, despite a
                   significant decrease in the proportion of discharge planners who report
                   that they are able to place all their beneficiaries in home health care.
                   Additionally, we find that Medicare data show no large changes that
                   may indicate a decline in access to care for beneficiaries with the most
                   common medical conditions and/or service needs discharged to home
                   health care in the past 5 years. At the same time, we find that
                   discharge planners report that beneficiaries with certain medical
                   conditions or service needs may experience placement delays.

                   These findings are similar to the findings in our prior three reports,
                   suggesting that, overall, the prospective payment system has not
                   resulted in reduced access to care. We encourage CMS to continue to
                   monitor access to home health care. In particular, CMS might closely
                   monitor beneficiaries who experience delays in accessing care,
                   including those who need IV antibiotics and/or expensive drugs, those
                   who need complex wound care, and those who need rehabilitation
                   therapy.




 OEI-02-04-00260   MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   iii
B   A N N   E R       2 N D             P A G E
Δ    T A B L E             O F           C O N T E N T S                              




             EXECUTIVE SUMMARY .....................................i



             INTRODUCTION ........................................... 1




             FINDINGS ................................................. 9

                       Most Medicare beneficiaries have access

                       to home health care. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                       Beneficiaries with certain medical conditions may 

                       experience delays . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


                       No differences in access between beneficiaries in 

                       urban and rural areas were detected; however, differences 

                       exist between nonprofit and for-profit agencies. . . . . . . . . . . . . . . 15 



             C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



             A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                       A: Home Health Resource Groupings . . . . . . . . . . . . . . . . . . . . . . 19 


                       B: Payment Adjustments for Home Health Claims . . . . . . . . . . . 20 


                       C: Confidence Intervals for Key Findings . . . . . . . . . . . . . . . . . . . 21 


                       D: Department of Agriculture’s Urban Influence Codes. . . . . . . . 22 


                       E: Analysis of Most Common DRGs and HHRGs . . . . . . . . . . . . . 23 



             A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39 

  Δ         I N T R O D U C T I O N                             



                    OBJECTIVE
                    To assess Medicare beneficiaries’ access to home health care since the
                    implementation of the prospective payment system.


                    BACKGROUND
                    This study is a followup to a series of earlier studies conducted by the
                    Office of Inspector General (OIG). In 1997, the Centers for Medicare &
                    Medicaid Services (CMS) began implementing an interim payment
                    system, which was replaced by a prospective payment system for home
                    health care in 2000. In 1999, CMS asked OIG to identify any early
                    effects the new payment system may be having on Medicare
                    beneficiaries’ access to home health care.

                    In response, OIG conducted a series of studies on access to home health
                    care for Medicare beneficiaries who are discharged from the hospital.
                    This series is part of OIG’s ongoing commitment to monitor
                    beneficiaries’ access to home health care. The Medicare Payment
                    Advisory Commission has also emphasized the importance of these
                    reports and of continuing to monitor access to care for Medicare
                    beneficiaries following hospitalization.1
                    Medicare Home Health Care
                    Home health care consists of skilled nursing, therapy (physical,
                    occupational, and speech), and certain related services, including social
                    work and aide services, all furnished in a beneficiary’s home. Home
                    health agencies that deliver these services can be freestanding or
                    hospital-based, and can be classified as nonprofit, for-profit, or
                    governmental.

                    Medicare pays for home health care only if it is reasonable and
                    necessary for the treatment of a beneficiary’s illness or injury. To be
                    eligible for care, a beneficiary must be homebound, under the care of a
                    physician who has established a plan of care, and need therapy or
                    skilled nursing on an intermittent basis. Occupational therapy alone
                    does not constitute a skilled need. After care has begun and other
                    skilled services are discontinued, however, continued occupational
                    therapy is considered a skilled need. There are no limits on the number


                    1 Medicare Payment Advisory Commission (MedPAC), “Report to Congress: Medicare
                    Payment Policy,” March 2004.



OEI-02-04-00260     MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   1
    I N T R O D   U C T       I O N


                   of visits or length of coverage, and beneficiaries do not have copayments
                   or deductibles.
                   Home Health Prospective Payment System
                   The Balanced Budget Act of 1997 (BBA)2 required payments for home
                   health care to be made on a prospective basis. To allow time to develop
                   the prospective payment system, the BBA mandated the
                   implementation of an interim payment system. The interim payment
                   system became effective for cost-reporting periods beginning October 1,
                   1997, and continued until the implementation of the prospective
                   payment system, which began in October 2000.

                   The prospective payments are determined by assigning each beneficiary
                   to a Home Health Resource Group (HHRG). The HHRG is a score that
                   is based on three dimensions of a beneficiary’s condition: his or her
                   clinical condition, functional status, and expected use of services. There
                   are four clinical severity categories (minimal, low, moderate, and high),
                   five functional classifications (minimal, low, moderate, high, and
                   maximum), and four levels of service use (minimal, low, moderate, and
                   high), for a total of 80 possible combinations. Each HHRG has a
                   different payment rate that reflects the average cost of providing
                   services to a beneficiary in that group.3 Appendix A provides a more
                   detailed description of the HHRGs.

                   Under the prospective payment system, the home health agency is paid
                   for a full 60-day episode, even if care is provided during a fewer number
                   of days. If a beneficiary is still eligible for care at the end of the first
                   episode, the agency can begin a second 60-day episode. There is no limit
                   on the number of episodes that an eligible beneficiary can receive;
                   however, an assessment must be completed for each episode of care a
                   beneficiary receives. If the costs associated with treating a beneficiary
                   are unusually large or small, episode payments may be adjusted.
                   Appendix B describes the four types of payment adjustments.




                   2 Balanced Budget Act of 1997, Pub. L. No. 105-33, 111 Stat. 251.
                   3 Upon receiving a referral, the home health agency performs an initial assessment using
                   the Outcome and Assessment Information Set. This assessment is used to convert the
                   beneficiary’s condition into a numeric score for three areas: clinical severity, functional
                   status, and service utilization. These scores are totaled and the total corresponds to an
                   HHRG.



OEI-02-04-00260    M EDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4              2
    I N T R O D   U C T      I O N 





                   Changes to the Home Health Prospective Payment System
                   Congress and CMS have made a number of additional changes to
                   eligibility requirements and payment rates. The key changes include:
                   o 	 As of February 1998, a beneficiary’s need for venipuncture no
                        longer constitutes a qualifying skilled need. Prior to this change
                        some beneficiaries, for whom this was their only skilled need,
                        qualified for home health care.4
                   o 	 In response to concerns over the ambiguity of the definition of
                        “homebound,” the Benefits Improvement and Protection Act of
                        2000 clarified that a person can leave his or her home for certain
                        purposes, such as attending adult day care activities or religious
                        services, and still qualify for Medicare home health care.5
                   o 	 Finally, the Medicare Prescription Drug, Improvement, and
                        Modernization Act of 2003 changed the home health prospective
                        payment system’s update cycle from a fiscal year to a calendar
                        year, and increased payments to home health agencies in rural
                        areas by 5 percent between April 2004 and April 2005.6
                   Recent Trends in Home Health Services
                   Since 1992, Medicare spending for home health care has varied greatly.
                   From 1992 to 1996, expenditures rose from $6.5 billion to a peak of
                   $14.4 billion, before falling to $8.5 billion in 1999 and 2000. However,
                   spending rose again to $16.4 billion in 2004. See Chart 1 on the
                   following page.




                   4 42 U.S.C. 1395f(a)(2)(C), 1395n(a)(2)(A).
                   5 Medicare, Medicaid, and SCHIP Benefits Improvement and Protection Act of 2000,      

                   Pub. L. No. 106-554, 114 Stat. 2763. 

                   6 Medicare Prescription Drug, Improvement, and Modernization Act of 2003,         

                   Pub. L. No. 108-173, 117 Stat. 2066.



OEI-02-04-00260    MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4           3
         I N T R O D         U C T                               I O N


           CHART 1                                          18
Medicare Spending
                                                            16
   for Home Health




                          Annual Expenditures (dollars in
              Care                                          14
         1992–2004                                          12




                                     billions)
                                                            10

                                                             8

                                                             6

                                                             4

                                                             2

                                                             0
                                                             1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004
                                                                                                  Cale ndar Ye ar



                        Source: CMS, “Historical National Health Expenditures by Type of Service and Source of Funds: Calendar
                        Years 1960–2004.”



                       Medicare data further show that the number of home health agencies
                       has increased since 2000. See Chart 2 below.

           CHART 2
  Number of Home                             7,600
  Health Agencies,                                                                                                                      7,329
        1999–2004                            7,200
                                                                  6,997
                                                                                                                                6,875
                                             6,800
                                                                                                              6,579
                                                                                   6,524

                                             6,400


                                             6,000


                                             5,600
                                                                  2000             2001                      2002               2003    2004




                     Source: Health Care Information System.



                       Finally, Medicare data show that more than 2,839,000 beneficiaries
                       received home health care in 2004—a 12-percent increase from 2000,
                       when more than 2,544,000 beneficiaries received home health care.




OEI-02-04-00260        MEDICARE BENEFICIARY ACCESS                          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                   4
           I N T R O D   U C T       I O N

                    Discharge Planners
                    Federal regulations require all hospitals to offer discharge planning
                    services.7 These services are developed by or under the supervision of a
                    registered professional nurse, social worker, or other appropriately
                    qualified personnel. In most hospitals, the social work, case
                    management, or utilization review department has primary
                    responsibility for discharge planning. Discharge planners conduct a
                    patient assessment and meet with utilization review staff, the patient’s
                    nurses and physicians, and other relevant interdisciplinary team
                    members to identify patients who are likely to suffer adverse health
                    consequences in the absence of adequate discharge planning. Discharge
                    planners then evaluate these patients’ likely need for posthospital
                    services and the availability of these services.
                    Prior Work on Access to Home Health Care
                    OIG released three reports between 1999 and 2001 on access to home
                    health care for Medicare beneficiaries who were discharged from the
                    hospital.8 The most recent report, completed after the prospective
                    payment system had been in place for about 6 months, found that
                    beneficiaries generally had access to home health care. However,
                    discharge planners commonly reported that beneficiaries who use
                    expensive drugs not covered under Medicare and/or those needing
                    wound care that required frequent visits by home health staff
                    experienced more delays being placed in home health care. These
                    findings were consistent with those from the earlier studies.

                    OIG also completed a report in 2001 on access to home health care for
                    Medicare beneficiaries entering home health care from nonhospital
                    settings (i.e., “from the community”) under the interim payment
                    system.9 This report found that generally home health care was
                    accessible and that these beneficiaries had experiences similar to those
                    of beneficiaries entering home health care following hospitalization.




                    7 42 CFR § 482.43. 

                    8 OIG, “Medicare Beneficiary Access to Home Health Agencies,” OEI-02-99-00530, October 


                    1999; “Medicare Beneficiary Access to Home Health Agencies: 2000,” OEI-02-00-00320, 

                    September 2000; and “Access to Home Health Care After Hospital Discharge 2001,” OEI

                    02-01-00180, July 2001. 

                    9 OIG, “Home Health Community Beneficiaries,” OEI-02-01-00070, October 2001.





OEI-02-04-00260     M EDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4        5
    I N T R O D   U C T      I O N 




                   SCOPE AND METHODOLOGY
                   We based our study on data from two sources: structured interviews
                   with hospital discharge planners who have firsthand experience placing
                   Medicare beneficiaries in home health care, and an analysis of Medicare
                   data for beneficiaries who were discharged from the hospital to home
                   health care.
                   Structured Interviews
                   We selected a random sample of 300 acute care hospitals with 30 or
                   more beds from the 50 States and the District of Columbia. We found
                   that 15 of these hospitals were in fact not acute care hospitals, were
                   pediatric, psychiatric, or cancer care centers, or hospitals that were
                   bankrupt or no longer qualified to meet the minimum bed standard.

                   Of the remaining 285 hospitals, we received responses from 256, which
                   resulted in a 90-percent response rate. We conducted structured
                   interviews with the discharge planner or his or her designee from each
                   hospital. We asked discharge planners about their experiences with
                   placing Medicare beneficiaries in home health care and the types of
                   medical conditions and/or service needs of beneficiaries they are never
                   able to place or who experience delays. We conducted these interviews
                   between December 2004 and March 2005. Note that this is the same
                   sample of hospitals used in the OIG study “Medicare Beneficiary Access
                   to Skilled Nursing Facilities: 2004” (OEI-02-04-00270). Appendix C
                   provides confidence intervals for key findings.

                   For relevant questions, we determined whether there were any
                   statistical differences between responses to our current interviews and
                   responses to similar questions from our 2001 study. Additionally, we
                   compared key characteristics of the hospitals in our current sample with
                   those in our 2001 sample. Specifically, we compared the number and
                   type of beds, facility ownership, and whether the hospital was in an
                   urban or rural area. The differences between the samples are within
                   statistical sampling variation.
                   Analysis of Medicare Data
                   We used the most up-to-date Medicare data from CMS’s National
                   Claims History File that were available at the start of the study. We
                   identified all beneficiaries who: (1) had a paid home health care claim
                   between April 1, 2003, and March 31, 2004; and (2) had a hospital




OEI-02-04-00260    MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   6
            I N T R O D    U C T        I O N

                     discharge within 30 days prior to their home health care claim.10 We
                     identified all beneficiaries who met these criteria for each year starting
                     with April 1, 1999.

                     Based on these data, we analyzed several measures to determine
                     whether there have been any large changes in beneficiaries’ access to
                     home health care since the implementation of the prospective payment
                     system. We define a large change to be 1 percentage point or greater or
                     1 day or longer in these analyses. We analyzed the following measures
                     for a 4-year or 5-year period:

                     1. 	 the proportion of Medicare beneficiaries who were discharged from
                          the hospital to home health care for the 10 most common Diagnosis
                          Related Grouping (DRGs)11 and the 10 most common HHRGs to
                          assess whether beneficiaries with certain medical conditions are
                          being placed in home health care since the implementation of the
                          prospective payment system,12
                     2. 	 beneficiaries’ average length of stay in the hospital for the 10 most
                          common DRGs and the 10 most common HHRGs to assess whether
                          certain beneficiaries are experiencing longer delays before being
                          discharged to home health since the implementation of the
                          prospective payment system, and

                     3. 	 beneficiaries’ average length of time in days between hospital
                          discharge and the start of home health care for the 10 most common
                          DRGs and the 10 most common HHRGs to assess whether certain
                          beneficiaries are experiencing longer average times before obtaining




                     10 Note that we refer to this year of data as 2004 and that each year starts with April 1 of

                     the prior year and ends with March 31 of that year. The timeframe used in this study
                     (April 1 to March 31) differs from the timeframe used in the previous OIG studies on access
                     to home health care. Those studies were based on data from the first quarter of each year,
                     whereas this study is based on an entire year of data.
                     11 Most hospitals are paid a fixed amount for each beneficiary depending on the DRG to

                     which the beneficiary is assigned. A DRG is assigned based on a beneficiary’s diagnosis,
                     surgery, age, discharge destination, and sex. Each DRG has a weight that reflects the
                     relative cost, across all hospitals, of treating cases classified in that DRG.
                     12 We found little change in the 10 most common DRGs and HHRGs in each year. The 10
                     most common DRGs represent approximately 35 percent of all beneficiaries each year and
                     the 10 most common HHRGs represent approximately 60 percent of all beneficiaries each
                     year.



OEI-02-04-00260      MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                7
         I N T R O D   U C T      I O N

                       home health services since the implementation of the prospective
                       payment system.13
                   We then analyzed these measures to determine whether there are large
                   differences between beneficiaries in urban and rural areas and between
                   beneficiaries who receive services from nonprofit and for-profit home
                   health agencies. Using the Urban Influence Codes developed by the
                   U.S. Department of Agriculture, we divided the beneficiaries, based on
                   their addresses, into urban areas and rural areas. Appendix D provides
                   a more detailed description of the Urban Influence Codes. Using data
                   from CMS’s Online Survey Certification and Reporting system, we
                   determined which beneficiaries received home health services from
                   nonprofit and for-profit home health agencies.

                   Specifically, we analyzed the proportion of Medicare beneficiaries with
                   certain medical conditions receiving home health care in urban and
                   rural areas to see if there were any large differences compared to the
                   proportion of all Medicare beneficiaries receiving home health care in
                   urban and rural areas. If the proportion of beneficiaries with a certain
                   DRG or HHRG differed from the proportion of all beneficiaries in urban
                   and rural areas by 5 or more percentage points, we considered it to be a
                   large difference. We conducted a similar analysis of the proportion of
                   Medicare beneficiaries who received services from nonprofit and for-
                   profit agencies. We conducted these analyses for 2004.
                   Scope
                   This study focuses on Medicare beneficiaries who are discharged from
                   acute care hospitals to home health care. It does not include Medicare
                   beneficiaries who enter home health care from the community or from
                   other postacute settings. Medicare data show that, between April 1,
                   2003, and March 31, 2004, beneficiaries discharged from hospitals to
                   home health care accounted for 56 percent of all beneficiaries receiving
                   home health care.
                   Standards
                   Our review was conducted in accordance with the “Quality Standards
                   for Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.




                   13 Medicare beneficiaries may have had an intervening postacute stay between hospital
                   discharge and the start of home health care.



OEI-02-04-00260    MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4         8
  Δ         F I N D I N G S

Most Medicare beneficiaries discharged from the                                      Seventy-nine percent of discharge
      hospital have access to home health care                                       planners report that all beneficiaries
                                                                                     can be placed

                         As shown in Chart 3, 79 percent of discharge planners report that they
                         are able to place all of their Medicare beneficiaries who need home
                         health care in a typical month. This is a statistically significant
                         decrease from our 2001 study, in which 89 percent of discharge planners
                         reported being able to place all of their Medicare beneficiaries who need
                         care in home health.14
                         Additionally, 10 percent of discharge planners report not being able to
                         place up to 5 percent of their Medicare beneficiaries, while another
                         9 percent report not being able to place more than 5 percent of their
                         Medicare beneficiaries in a typical month. In total, discharge planners
                         in our sample are not able to place about 0.7 percent of all their
                         Medicare beneficiaries (174 of 24,528) who need home health care in a
                         typical month. Discharge planners most commonly explain that these
                         beneficiaries are typically sent home without home health care services,
                         go to a nursing home, or stay in the hospital.


             CHART 3
         Proportion of                        2%
                                      9%
  Discharge Planners
                                                                                                 79% Can Place All
    Placing Medicare
     Beneficiaries in        10%
   Home Health Care                                                                              10% Cannot Place 1–5
                                                                                                 Percent
                                                                                                 9% Cannot Place More
                                                                                                 Than 5 Percent
                                                                                                 2% Don’t Know

                                                                 79%
                                                                                                       n=256




                         14 In a 2-tailed t-test, this difference was significant at the 95-percent confidence level.




OEI-02-04-00260          MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                9
    F   I N D I N G    S


                      Most discharge planners also report that the supply of home health
                      services in their area is adequate. Specifically, 78 percent of discharge
                      planners report there are enough home health services available in
                      their area for Medicare beneficiaries. Seventy percent of discharge
                      planners report they have to contact an average of 1 agency to place a
                      Medicare beneficiary in home health care. An additional 21 percent
                      report they have to contact an average of 2 home health agencies, 7
                      percent report they have to contact 3 facilities, and 3 percent report
                      they have to contact 4 or more agencies.
                      Medicare data show no large changes that may indicate a decline in access
                      Medicare data show no large changes that may indicate a decline in access
                      to care for beneficiaries with certain medical conditions who were
                      discharged to home health care in the past 5 years. Again, we define a
                      large change in these analyses to be 1 percentage point or greater or 1 day
                      or longer.
                      Diagnosis Related Groups. A decrease in the proportion of Medicare
                      beneficiaries with a specific DRG who are discharged from the hospital
                      to home health care might indicate that beneficiaries with certain
                      medical conditions are experiencing a decline in access to home health
                      care. However, we found no large decreases in the proportion of
                      Medicare beneficiaries who were discharged from the hospital to home
                      health care for 9 of the 10 most common DRGs over the past 5 years.
                      See Table 1 on the following page. One exception was DRG 014
                      (intracranial hemorrhage or cerebral infarction), which has decreased
                      by more than 1 percentage point since 2000. This decrease may be
                      explained by a change in the definition of DRG 014, or possible
                      miscoding of this particular DRG.15




                      15 DRG 014 was designated a postacute transfer DRG in 2001. The purpose of the transfer
                      policy is to avoid providing an incentive for a hospital to transfer a beneficiary to another
                      hospital early in the beneficiary’s stay in order to minimize costs while still receiving the
                      full DRG payment. A recent OIG audit report (A-04-04-03000) found that hospitals did not
                      always comply with Medicare’s postacute transfer policy, and improperly coded transfers to
                      postacute care as discharges to home. Additionally, DRG 014 was redefined in October
                      2000, when the diagnosis for transient ischemia was removed from the DRG.



OEI-02-04-00260       M EDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4           10
     F    I N D I N G                   S        





   Table 1: Proportion of Medicare Beneficiaries Discharged to Home Health Care for the 10
   Most Common DRGs (2000–2004)*



                                                                                                                                     Difference
  Initial Hospital DRG                                          2000           2001               2002               2003     2004   2000–2004
  DRG 462—Rehabilitation                                        7.4%           7.9%               8.1%               8.6%     8.7%           1.3

  DRG 209—Major Joint and Limb                                  7.0%           7.3%               7.6%               7.9%     8.2%          1.2
  Reattachment Procedures of Lower
  Extremity

  DRG 127—Heart Failure and Shock                               6.1%           6.0%               5.7%               5.6%     5.6%          -0.5


  DRG 089—Simple Pneumonia and Pleurisy                         4.3%           3.7%               4.1%               3.8%     4.2%          -0.1


  DRG 088—Chronic Obstructive Pulmonary                         3.4%           3.1%               3.1%               2.9%     3.1%          -0.3
  Disease


  DRG 148—Major Small and Large Bowel                           2.1%           2.0%               2.0%               2.0%     1.9%          -0.2
  Procedures


  DRG 014—Intracranial Hemorrhage or                            3.1%           3.1%               3.0%               2.4%     1.9%          -1.2
  Cerebral Infarction


  DRG 296—Nutrition and Miscellaneous                           1.7%           1.7%               1.8%               1.8%     1.7%            0
  Metabolic Disorders


  DRG 107—Coronary Bypass With Cardiac                          2.0%           2.0%               1.8%               1.8%     1.5%          -0.5
  Catherization


  DRG 121—Circulatory Disorders with Acute                      1.6%           1.6%               1.5%               1.4%     1.4%          -0.2
  Myocardial Infarction and Major
  Complications


*Note that the year starts with April 1 of the prior year and ends with March 31 of that year.

Source: OIG analysis of CMS’s National Claims History File, 2005.




                                      Home Health Resource Groups. Similar to our analysis of DRGs, a
                                      decrease in the proportion of Medicare beneficiaries in an HHRG might
                                      indicate that beneficiaries with certain service needs are experiencing a
                                      decline in access to home health care. Again, we found no substantial
                                      decreases in the proportion of Medicare beneficiaries who were




OEI-02-04-00260                       MEDICARE BENEFICIARY ACCESS         TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                        11
  F   I N D I N G                S


                                   discharged from the hospital to home health care for the 10 most
                                   common HHRGs over the past 4 years.16 In fact, the proportion of
                                   beneficiaries discharged to home health care increased in all but one of
                                   the most common HHRGs. See Table 2 below.



              Table 2: Proportion of Medicare Beneficiaries Discharged to Home Health Care for
              the 10 Most Common HHRGs (2000–2004)*


                                                                                                                                       Difference
             HHRG                                                                       2001            2002           2003   2004   2001–2004**
             HBGJ (Clinical=low, Functional=mod, Service=min)                           8.5%            9.1%           9.2%   9.0%             0.5


             HCGL (Clinical=mod, Functional=mod, Service=mod)                           7.0%            6.6%           6.6%   8.2%            1.2


             HBGL (Clinical=low, Functional=mod, Service=mod)                           7.7%            7.4%           7.3%   7.6%            0.2


             HCGJ (Clinical=mod, Functional=mod, Service=min)                           5.9%            6.0%           6.1%   6.8%            0.8


             HAFJ (Clinical=min, Functional=low, Service=min)                           6.0%            6.6%           7.0%   6.4%            0.3


             HBFJ (Clinical=low, Functional=low, Service=min)                           5.7%            6.3%           6.6%   6.3%            0.6


             HAGJ (Clinical=min, Functional=mod, Service=min)                           5.2%            5.8%           5.8%   5.4%            0.1


             HCFJ (Clinical=mod, Functional=low, Service=min)                           3.5%            3.6%           3.7%   3.7%            0.2


             HAGL (Clinical=min, Functional=mod, Service=mod)                           4.0%            3.9%           3.6%   3.4%            -0.7


             HAEJ (Clinical=min, Functional=min, Service=min)                           2.9%            3.2%           3.5%   3.1%            0.2


           *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.
           **Note that data on the HHRGs were first available in 2001.
           Source: OIG analysis of CMS’s National Claims History File, 2005.




                                   Average length of stay in the hospital. An increase in the average length of
                                   stay in the hospital might indicate that beneficiaries with certain
                                   medical conditions or service needs are staying in the hospital longer
                                   because they are experiencing a decline in access to home health care.

                                   16 Data on the HHRGs were first available in 2001.




OEI-02-04-00260                    MEDICARE BENEFICIARY ACCESS         TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                        12
    F   I N D I N G    S


                      However, we found no large increases in average length of stay in the
                      hospital for any of the 10 most common DRGs or for any of the 10 most
                      common HHRGs. In fact, the average length of stay for all of the 10
                      most common HHRGs and all but 2 of the DRGs either decreased or
                      stayed the same since the implementation of the prospective payment
                      system. See Appendix E, Tables 6 and 7.
                      Average length of time between hospital discharge and the start of home health
                      care. Similarly, an increase in the average length of time between
                      hospital discharge and the start of home health care might indicate that
                      beneficiaries with certain medical conditions or service needs may be
                      experiencing a decline in access to home health care. Again, we found
                      no large increases in the average length of time between hospital
                      discharge and the start of home health services for any of the 10 most
                      common DRGs or for any of the 10 most common HHRGs. The average
                      length of time in days between hospital discharge and the start of home
                      health care for all but 2 DRGs and all 10 HHRGs either decreased or
                      stayed the same since the implementation of the prospective payment
                      system. See Appendix E, Tables 8 and 9.


  However, beneficiaries with certain medical          Discharge planners report delays placing
 conditions or service needs may experience            certain beneficiaries
                                       delays          Seventeen percent of discharge
                                                       planners report having Medicare
                      beneficiaries who experience delays at least sometimes before being
                      placed in home health care.17 This is not a statistically significant
                      decrease from the 2001 estimate, when 23 percent of discharge planners
                      reported having Medicare beneficiaries who experienced delays at least
                      sometimes.

                      Sixty-one percent (156 of 256) of discharge planners report ever
                      having Medicare beneficiaries who experience delays. Of those
                      discharge planners, most (98 of 156) say that delays are associated
                      with certain medical conditions or service needs. See Table 3 on the
                      following page. Specifically, discharge planners report that Medicare
                      beneficiaries who need intravenous (IV) antibiotics and/or expensive
                      drugs, those with complex wound care needs, and those who need


                      17 A placement delay occurs when a beneficiary is medically cleared by a doctor for
                      discharge, but no home health services have been secured.



OEI-02-04-00260       MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4       13
F   I N D I N G   S


                      rehabilitation therapy most often experience delays before being
                      placed in home health care. These medical conditions and service
                      needs are the same as the ones that discharge planners report are
                      associated with Medicare beneficiaries they can never place in home
                      health care.




                               Table 3: Medical Conditions/Service Needs Associated With
                               Placement Delays


                                                                                                             n= 98

                               IV Antibiotics/Infusion/Drug Needs                                              52


                               Wound Care/Decubitus Ulcer                                                      31


                               Rehabilitation/Therapy Needs                                                    26


                               Medically Complex/High Acuity                                                   14


                               Total Parenteral Nutrition/IV Feeding                                           11


                             Note: Responses are not mutually exclusive.

                             Source: OIG analysis of discharge planner interviews, 2005.




                      Discharge planners who report delays placing Medicare beneficiaries in
                      home health care commonly explain that the cost of providing these
                      services or Medicare reimbursement (44 of 98) is the reason for
                      placement delays. Specifically, they report that Medicare does not
                      always cover certain medical needs, such as IV antibiotics, and that
                      Medicare does not always cover all the costs associated with
                      beneficiaries who need high levels of care.18 Discharge planners also
                      explain that staffing needs (22 of 98), such as a shortage of qualified
                      physical therapists, and difficulty obtaining supplies (12 of 98), such as
                      wheelchairs and respiratory equipment, may cause delays in placing
                      beneficiaries.



                      18 Home infusion therapy is not covered unless it is administered by durable medical
                      equipment (42 USC 1395y).



OEI-02-04-00260       MEDICARE BENEFICIARY ACCESS     TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4          14
                      The medical conditions and service needs that discharge planners
                      associate with beneficiaries whose placement is delayed, as well as the
                      reasons for delays, are similar to the ones that discharge planners
                      reported in previous studies. In 2001, discharge planners reported that
                      Medicare beneficiaries who needed IV therapy or expensive drugs and
                      those with complex wound care needs most often experienced placement
                      delays. In 2001, some discharge planners also attributed placement
                      delays to medical conditions requiring several visits per day.


  No differences in access between beneficiaries            No differences in beneficiaries with
in urban and rural areas were detected; however,            certain medical conditions in urban
     beneficiaries with certain medical conditions          and rural areas were detected
 more frequently receive services from nonprofit            We analyzed the proportion of
                                                            Medicare beneficiaries with certain
           agencies than from for-profit agencies
                                                            medical conditions in urban and
                      rural areas to see if there were any large differences compared to the
                      proportion of all Medicare beneficiaries in home health care in urban
                      and rural areas. In 2004, 79 percent of all beneficiaries in home health
                      care were in urban areas and 21 percent were in rural areas. If the
                      proportion of beneficiaries with a certain DRG or HHRG differed from
                      these proportions by 5 or more percentage points, we considered it to be
                      a large difference. We found no large differences in the proportion of
                      Medicare beneficiaries in urban and rural areas with the 10 most
                      common DRGs and the 10 most common HHRGs, compared to the
                      proportion of all beneficiaries in urban and rural areas. See Appendix
                      E, Tables 10 and 11.

                      We also found no large differences between beneficiaries in urban and
                      rural areas in the average length of stay in the hospital and the average
                      length of time before the start of home health services. Beneficiaries in
                      urban and rural areas had similar average lengths of hospital stays and
                      average times between hospital discharge and the start of home health
                      services for all of the 10 most common DRGs and all of the 10 most
                      common HHRGs. See Appendix E, Tables 12, 13, 14, and 15.

                      In our interviews, 54 percent of discharge planners report no difference
                      between placing Medicare beneficiaries in urban and rural areas,




OEI-02-04-00260       MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   15
          F   I N D I N G   S


                      whereas 34 percent of discharge planners report some differences.19
                      Those who say that placing Medicare beneficiaries in urban areas is
                      easier commonly explain that urban agencies are more accessible and
                      staffing is adequate. Those who report that placing Medicare
                      beneficiaries in rural areas is easier say that there is often less waiting
                      time to receive services from these agencies and that patients are more
                      often familiar with the agencies.
                      Beneficiaries with certain medical conditions receive services more
                      frequently from nonprofit agencies than from for-profit agencies
                      We conducted a similar analysis of Medicare beneficiaries with certain
                      medical conditions who received services from nonprofit and for-profit
                      agencies to see if there were any large differences (i.e., 5 or more
                      percentage points) compared to the proportion of all Medicare
                      beneficiaries receiving services from nonprofit and for-profit agencies.
                      In 2004, 58 percent of beneficiaries received services from nonprofit
                      agencies and 36 percent received services from for-profit agencies.20
                      We found that beneficiaries with certain HHRGs receive services more
                      frequently from nonprofit agencies than from for-profit agencies,
                      compared to all beneficiaries. Specifically, for 5 of the 10 most common
                      HHRGs, a greater proportion of beneficiaries received services from
                      nonprofit agencies compared to the overall population. At the same
                      time, for another one of these HHRGs, a greater proportion of
                      beneficiaries received services from for-profit agencies compared to the
                      overall population.21 See Appendix E, Table 17.
                      Further, some beneficiaries who received services from for-profit
                      agencies experienced a longer time between hospital discharge and the
                      start of home health care compared to beneficiaries placed in nonprofit
                      agencies. Specifically, beneficiaries with 6 of the 10 most common
                      DRGs who received services from for-profit agencies had longer average


                      19 The remaining 12 percent of discharge planners report having no experience placing

                      Medicare beneficiaries in both urban and rural areas or report that they “don’t know.”
                      20 The remaining 7 percent of beneficiaries received services from government home health

                      agencies. Note that the total does not equal 100 percent due to rounding.
                      21 In addition, the proportion of beneficiaries with DRG 107 who received services from

                      nonprofit agencies was at least 5 percentage points greater than all beneficiaries who
                      received services from nonprofit agencies. Also, the proportion of beneficiaries with DRG
                      462 who received services from for-profit agencies was at least 5 percentage points greater
                      than all beneficiaries who received services from for-profit agencies. See Appendix D, Table
                      16.



OEI-02-04-00260       MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4           16
             F    I N D I N G     S

                         times between hospital discharge and the start of home health services
                         than those receiving services from nonprofit agencies. See Appendix E,
                         Table 20. Note that there may be several reasons for this distribution
                         that may not necessarily indicate a difference in access.




OEI-02-04-00260          MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   17
  Δ         C O N C L U S I O N                   


                    We continue to find that Medicare beneficiaries discharged from
                    hospitals generally have access to home health care, despite a
                    significant decrease in the proportion of discharge planners who report
                    that they are able to place all their beneficiaries in home health care.
                    Additionally, we find that Medicare data show no large changes that
                    may indicate a decline in access to care for beneficiaries with the most
                    common medical conditions and/or service needs discharged to home
                    health care in the past 5 years. At the same time, discharge planners
                    report that beneficiaries with certain medical conditions or service
                    needs may experience placement delays.

                    These findings are similar to the findings in our prior three reports,
                    suggesting that, overall, the prospective payment system has not
                    resulted in reduced access to home health care. We encourage CMS
                    to continue to monitor access to home health care. In particular, CMS
                    might closely monitor beneficiaries who experience delays in
                    accessing care, including those who need IV antibiotics and/or
                    expensive drugs, those who need complex wound care, and those who
                    need rehabilitation therapy.




OEI-02-04-00260     MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   18
     Δ            A P P E N D I X              ~        A



                              Home Health Resource Groupings



Each Home Health Resource Grouping (HHRG) is composed of three domains or dimensions—
clinical, functional, and service. The clinical dimension is based on factors such as selected
diagnoses, sensory impairments, pressure ulcers, incontinence, and behavioral problems. The
functional domain is based on six activities of daily living, such as dressing, bathing, and
ambulation/locomotion. The service dimension is based on the patient's institutional setting
in the 2-week period prior to the start of the home health episode and the amount of therapy
received during the home health episode. The service measures are intended as proxy
indicators of patient case mix and need for services. The combined four clinical, five
functional, and four service levels are denoted, respectively, C0 to C3, F0 to F4, and S0 to S3.
The 80 HHRGs are formed by taking all combinations of one level from each dimension
(e.g., C0-F0-S0).




OEI-02-04-00260          MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   19
  Δ         A P P E N D I X                ~      B


                    Payment Adjustments for Home Health Claims


Generally, Medicare makes payment under the home health prospective payment system on the
basis of a national standardized 60-day episode payment, adjusted for case mix and wage index.
Additionally, there are four types of payment adjustments for unusually large or small costs:
Partial Episode Payment. This adjustment occurs when (1) a beneficiary elects to transfer to
another home health agency, or (2) a beneficiary is discharged and returns to the same home
health agency. The original episode payment is proportionally adjusted to reflect the length of
time the beneficiary remains under the agency’s care before the intervening event.
Significant Change in Condition. This is the proportional payment adjustment that occurs when a
beneficiary experiences a significant change in condition that was not envisioned in the original
plan of care. To receive a new case-mix assignment for purposes of this payment, the home
health agency must complete an assessment and obtain the necessary physician orders
reflecting the significant change in treatment approach.
Low Utilization Payment Adjustment. The home health agency receives less than the full 60-day
episode rate if it provides four or fewer visits to a beneficiary. For these episodes, the home
health agency is paid the standardized, service-specific, per-visit amount multiplied by the
number of visits actually provided during the episode.
Outlier Payment. Outlier payments are made for episodes for which the imputed cost exceeds a
threshold amount for each case-mix group. The amount of the outlier payment is a proportion of
the amount of imputed costs beyond the threshold. For each episode reported on the claim, CMS
imputes the cost for each episode by multiplying the national per-visit amount of each discipline
(i.e., skilled nursing services, home health aide services, physical therapy services, occupational
therapy services, speech-language pathology services, and medical services) by the number of
visits in the discipline and computing the total imputed cost for all disciplines.




OEI-02-04-00260         MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   20
     Δ            A P P E N D I X                             ~        C

                                      Confidence Intervals for Key Findings



  Table 4: Point Estimates and Confidence Intervals for Key Findings



  Key Findings                                                                       n                     Point Estimate          Confidence Interval*
  Seventy-nine percent of discharge planners report they are                       256                               79%                       +/-4.99
  able to place all of their Medicare beneficiaries who need
  home health care in a typical month.

  Seventy-eight percent of discharge planners report there are                     256                                       78%               +/-5.07
  enough home health services available in their area for
  Medicare beneficiaries.

  Sixty-nine percent of discharge planners report they have to                     256                                       69%               +/-5.67
  contact an average of 1 agency to place a Medicare
  beneficiary in home health care.

  Seventeen percent of discharge planners report having 
                          256                                       17%               +/-4.60
  Medicare beneficiaries who experience delays at least 

  sometimes before being placed in home health care. 


  Most discharge planners who report ever having Medicare                          156                                       63%               +/-7.58
  beneficiaries who experience delays (98 of 156)** say that
  delays are associated with certain medical conditions or
  service needs.

  Fifty-four percent of discharge planners report no difference                    256                                       54%               +/-6.11
  between placing beneficiaries in urban areas and rural areas.

*95-Percent confidence interval.

** The denominator (i.e., 156) includes discharge planners who report having Medicare beneficiaries who experience delays at least sometimes and
discharge planners who report rarely having Medicare beneficiaries who experience delays.

Source: OIG analysis of discharge planner interviews, 2005.




  OEI-02-04-00260                      MEDICARE BENEFICIARY ACCESS       TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                          21
 Δ          AA PP PP EE NN DD II XX                    ~~       DD

                          Department of Agriculture’s Urban Influence Codes


The Urban Influence Codes were developed by the Department of Agriculture Economic
Research Service to take into account the geographic relationship of rural areas to larger urban
economies. The Urban Influence Codes divide U.S. counties, county equivalents, and
independent cities into 12 categories as described in the table below. In our analysis, we
considered the first 2 categories as urban areas and the remaining 10 categories as rural areas.
This is similar to the method used by the Medicare Payment Advisory Commission in its June
2001 “Report to Congress: Medicare in Rural America.”



        Table 5: Urban Influence Codes


       Code                                                                                    2003 Description       Designation

       1                                                      In large metro area of 1+ million residents                  Urban


       2                                            In small metro area of less than 1 million residents                   Urban


       3                                                             Micropolitan adjacent to large metro                   Rural


       4                                                                  Noncore adjacent to large metro                   Rural


       5                                                             Micropolitan adjacent to small metro                   Rural


       6                                               Noncore adjacent to small metro with own town                        Rural


       7                                                 Noncore adjacent to small metro no own town                        Rural


       8                                                       Micropolitan not adjacent to a metro area                    Rural


       9                                                      Noncore adjacent to micro with own town                       Rural


       10                                                   Noncore adjacent to micro with no own town                      Rural


       11                                       Noncore not adjacent to metro or micro with own town                        Rural


       12                                    Noncore not adjacent to metro or micro with no own town                        Rural


     Source: Economic Research Service, U.S. Department of Agriculture.




OEI-02-04-00260                  MEDICARE BENEFICIARY ACCESS      TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                 22
 Δ            A P P E N D I X                                  ~          E

                                   Analysis of Most Common DRGs and HHRGs



   Table 6: Average Length of Hospital Stay in Days for the 10 Most Common
   DRGs (2000–2004)*

                                                                                                                                         Difference
  DRG                                                           2000               2001             2002               2003       2004   2000–2004
  DRG 462—Rehabilitation                                        13.3               12.8             12.5               12.4       12.3          -1.0


  DRG 209—Major Joint and Limb                                      4.9              4.8               4.7                4.5      4.4          -0.5
  Reattachment Procedures of Lower
  Extremity

  DRG 127—Heart Failure and Shock                                   6.4              6.4               6.4                6.3      6.3          -0.1


  DRG 089—Simple Pneumonia and Pleurisy,                            7.0              7.0               7.0                6.9      6.9          -0.1
  Age Greater Than 17, With Complications
  or Comorbidities

  DRG 088—Chronic Obstructive Pulmonary                             6.5              6.5               6.5                6.6      6.6          0.1
  Disease


  DRG 148—Major Small and Large Bowel                              13.0            13.1              13.1               13.1      12.9          -0.1
  Procedures, With Complications or
  Comorbidities

  DRG 014—Intracranial Hemorrhage or                                7.0              6.9               7.0                7.3      7.1          0.1
  Cerebral Infarction


  DRG 296—Nutrition and Miscellaneous                               6.0              6.0               5.9                5.8      5.7          -0.3
  Metabolic Disorders, Age Greater Than 17,
  With Complications or Comorbidities

  DRG 107—Coronary Bypass With Cardiac                             10.4            10.4              10.3               10.4      10.3          -0.1
  Catherization


  DRG 121—Circulatory Disorders With Acute                          8.0              7.9               7.8                7.8      7.6          -0.4
  Myocardial Infarction and Major
  Complications, Discharged Alive


Source: OIG analysis of CMS’s National Claims History File, 2005. 


*Note that the year starts with April 1 of the prior year and ends with March 31 of that year.





OEI-02-04-00260                        MEDICARE BENEFICIARY ACCESS            TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                        23
     A P P E N D                     I X          ~        E         





    Table 7: Average Length of Hospital Stay in Days for the 10 Most Common
    HHRGs (2001–2004)*

                                                                                                                                     Difference
   HHRG                                                                     2001              2002               2003         2004   2000–2004
   HBGJ (Clinical=low, Functional=mod, Service=min)                          6.9               6.8                6.8          6.6          -0.3



   HCGL (Clinical=mod, Functional=mod, Service=mod)                            7.8               7.7                7.6        7.3          -0.5



   HBGL (Clinical=low, Functional=mod, Service=mod)                            7.3               7.2                7.2        7.2          -0.1



   HCGJ (Clinical=mod, Functional=mod, Service=min)                            7.5               7.4                7.3        7.0          -0.5



   HAFJ (Clinical=min, Functional=low, Service=min)                            6.6               6.5                6.4        6.3          -0.3



   HBFJ (Clinical=low, Functional=low, Service=min)                            6.7               6.7                6.6        6.5          -0.2



   HAGJ (Clinical=min, Functional=mod, Service=min)                            7.1               7.1                6.9        6.8          -0.3



   HCFJ (Clinical=mod, Functional=low, Service=min)                            7.1               7.1                6.9        6.8          -0.3



   HAGL (Clinical=min, Functional=mod, Service=mod)                            7.8               7.8                7.7        7.8            0



   HAEJ (Clinical=min, Functional=min, Service=min)                            6.3               6.2                6.1        6.0          -0.3



 Source: OIG analysis of CMS’s National Claims History File, 2005.

 Note that data on the HHRGs were first available in 2001.

 *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.




OEI-02-04-00260                       MEDICARE BENEFICIARY ACCESS         TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                        24
     A P P E N D                     I X          ~         E         





    Table 8: Average Length of Time Between Hospital Discharge and the Start of Home
    Health Care in Days, for the 10 Most Common DRGs (2000–2004)*


                                                                                                                                         Difference
   DRG                                                       2000            2001                2002                2003        2004    2000–2004
   DRG 462—Rehabilitation                                      3.1             2.9                 2.8                 2.7         2.7          -0.4

   DRG 209—Major Joint and Limb                                 7.4              7.3                7.1                 7.0       6.7           -0.7
   Reattachment Procedures of Lower
   Extremity

   DRG 127—Heart Failure and Shock                              4.7              4.5                4.6                 4.6       4.7             0

   DRG 089—Simple Pneumonia and                                 5.0              4.8                4.8                 4.9       5.0             0
   Pleurisy, Age Greater Than 17, With
   Complications or Comorbidities

   DRG 088—Chronic Obstructive                                  4.5              4.2                4.3                 4.4       4.4           -0.1
   Pulmonary Disease


   DRG 148—Major Small and Large Bowel                          5.0              4.8                4.7                 4.8       4.9           -0.1
   Procedures, With Complications or
   Comorbidities

   DRG 014—Intracranial Hemorrhage or                           6.5              6.3                6.3                 6.4       6.4           -0.1
   Cerebral Infarction


   DRG 296—Nutrition and Miscellaneous                          5.9              5.6                5.8                 5.8       6.0           0.1
   Metabolic Disorders, Age Greater Than
   17, With Complications or Comorbidities

   DRG 107—Coronary Bypass With                                 3.6              3.4                3.4                 3.4       3.4           -0.2
   Cardiac Catherization


   DRG 121—Circulatory Disorders With                           5.0              4.9                5.0                 5.1       5.3           0.3
   Acute Myocardial Infarction and Major
   Complications, Discharged Alive


 Source: OIG analysis of CMS’s National Claims History File, 2005. 


 *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.





OEI-02-04-00260                        MEDICARE BENEFICIARY ACCESS         TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4 
                         25
A P P E N D                I X           ~        E        





     Table 9: Average Length of Time Between Hospital Discharge and the Start of Home Health
     Care in Days, for the 10 Most Common HHRGs (2001–2004)*

                                                                                                                                          Difference
    HHRG                                                                     2001                2002               2003         2004   2001–2004**
    HBGJ (Clinical=low, Functional=mod, Service=min)                          3.6                 3.4                3.3          3.3            -0.3



    HCGL (Clinical=mod, Functional=mod, Service=mod)                              4.9               4.4                4.2        4.0            -0.9



    HBGL (Clinical=low, Functional=mod, Service=mod)                              4.5               4.2                4.1        4.1            -0.4



    HCGJ (Clinical=mod, Functional=mod, Service=min)                              4.1               3.8                3.7        3.5            -0.6



    HAFJ (Clinical=min, Functional=low, Service=min)                              3.1               2.9                2.9        2.9            -0.2



    HBFJ (Clinical=low, Functional=low, Service=min)                              3.3               3.1                3.1        3.1            -0.2



    HAGJ (Clinical=min, Functional=mod, Service=min)                              3.4               3.3                3.2        3.2            -0.2



    HCFJ (Clinical=mod, Functional=low, Service=min)                              3.8               3.5                3.4        3.4            -0.4



    HAGL (Clinical=min, Functional=mod, Service=mod)                              4.4               4.1                4.0        3.9            -0.5



    HAEJ (Clinical=min, Functional=min, Service=min)                              2.8               2.7                2.7        2.8              0



  Source: OIG analysis of CMS’s National Claims History File, 2005.

  Note that data on the HHRGs were first available in 2001.

  *Note that the year starts with April 1 of the prior year and ends with March 31 of that year.




  OEI-02-04-00260                        MEDICARE BENEFICIARY ACCESS         TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                          26
A P P E N D         I X          ~         E        





                Table 10: Beneficiaries in Urban and Rural Areas for the 10 Most Common
                DRGs, Compared to All Beneficiaries, 2004*


               DRG                                                                                                    Urban      Rural
               DRG 462—Rehabilitation                                                                                 81.2%     18.8%


               DRG 209—Major Joint and Limb Reattachment Procedures of                                                 74.3%    25.7%
               Lower Extremity


               DRG 127—Heart Failure and Shock                                                                         79.8%    20.2%


               DRG 089—Simple Pneumonia and Pleurisy, Age Greater                                                      76.4%    23.6%
               Than 17, With Complications or Comorbidities


               DRG 088—Chronic Obstructive Pulmonary Disease                                                           78.5%    21.6%


               DRG 148—Major Small and Large Bowel Procedures, With                                                    77.5%    22.5%
               Complications or Comorbidities


               DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                  79.4%    20.6%


               DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                                77.7%    22.3%
               Age Greater Than 17, With Complications or Comorbidities


               DRG 107—Coronary Bypass With Cardiac Catherization                                                      76.2%    23.8%


               DRG 121—Circulatory Disorders With Acute Myocardial                                                     78.5%    21.5%
               Infarction and Major Complications, Discharged Alive



               All Beneficiaries                                                                                       79.1%    20.9%


             *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

             Source: OIG analysis of CMS’s National Claims History File, 2005.




    OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS         TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4            27
A P P E N D              I X          ~        E         





             Table 11: Beneficiaries in Urban and Rural Areas for the 10 Most Common
             HHRGs, Compared to All HHRGs, 2004*


            HHRG                                                                                                   Urban        Rural
            HBGJ (Clinical=low, Functional=mod, Service=min)                                                       76.1%       23.9%



            HCGL (Clinical=mod, Functional=mod, Service=mod)                                                        77.5%      22.5%



            HBGL (Clinical=low, Functional=mod, Service=mod)                                                        79.3%      20.7%



            HCGJ (Clinical=mod, Functional=mod, Service=min)                                                        74.9%      25.2%



            HAFJ (Clinical=min, Functional=low, Service=min)                                                        82.0%      18.0%



            HBFJ (Clinical=low, Functional=low, Service=min)                                                        78.0%      22.1%



            HAGJ (Clinical=min, Functional=mod, Service=min)                                                        80.3%      19.7%



            HCFJ (Clinical=mod, Functional=low, Service=min)                                                        77.2%      22.8%



            HAGL (Clinical=min, Functional=mod, Service=mod)                                                        82.2%      17.8%



            HAEJ (Clinical=min, Functional=min, Service=min)                                                        83.6%      16.4%




            All Beneficiaries                                                                                       79.1%      20.9%


          *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

          Source: OIG analysis of CMS’s National Claims History File, 2005.




  OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4            28
A P P E N D            I X          ~        E         





              Table 12: Urban and Rural Differences in the Average Length of Hospital Stay
              in Days for the 10 Most Common DRGs, 2004*


             DRG                                                                                                  Urban         Rural
             DRG 462—Rehabilitation                                                                                 12.3         12.5


             DRG 209—Major Joint and Limb Reattachment Procedures of                                                    4.3       4.5
             Lower Extremity


             DRG 127—Heart Failure and Shock                                                                            6.4       5.7


             DRG 089—Simple Pneumonia and Pleurisy, Age Greater                                                         7.0       6.4
             Than 17, With Complications or Comorbidities


             DRG 088—Chronic Obstructive Pulmonary Disease                                                              6.8       5.9


             DRG 148—Major Small and Large Bowel Procedures, With                                                     12.9       12.7
             Complications or Comorbidities


             DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                     7.2       6.5


             DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                                   5.8       5.3
             Age Greater Than 17, With Complications or Comorbidities


             DRG 107—Coronary Bypass With Cardiac Catherization                                                       10.4       10.1


             DRG 121—Circulatory Disorders With Acute Myocardial                                                        7.7       7.1
             Infarction and Major Complications, Discharged Alive


           *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

           Source: OIG analysis of CMS’s National Claims History File, 2005.




   OEI-02-04-00260                      MEDICARE BENEFICIARY ACCESS         TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4           29
A P P E N D                  I X          ~        E         





           Table 13: Urban and Rural Differences in the Average Length of Hospital Stay
           in Days for the 10 Most Common HHRGs, 2004*


          HHRG                                                                                                 Urban         Rural
          HBGJ (Clinical=low, Functional=mod, Service=min)                                                        6.8          6.3



          HCGL (Clinical=mod, Functional=mod, Service=mod)                                                           7.5       6.8



          HBGL (Clinical=low, Functional=mod, Service=mod)                                                           7.3       6.7



          HCGJ (Clinical=mod, Functional=mod, Service=min)                                                           7.1       6.7



          HAFJ (Clinical=min, Functional=low, Service=min)                                                           6.3       5.9



          HBFJ (Clinical=low, Functional=low, Service=min)                                                           6.6       6.1



          HAGJ (Clinical=min, Functional=mod, Service=min)                                                           6.9       6.4



          HCFJ (Clinical=mod, Functional=low, Service=min)                                                           6.9       6.5



          HAGL (Clinical=min, Functional=mod, Service=mod)                                                           7.9       7.3



          HAEJ (Clinical=min, Functional=min, Service=min)                                                           6.1       5.7



        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

        Source: OIG analysis of CMS’s National Claims History File, 2005.




OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4           30
A P P E N D                  I X          ~        E         





           Table 14: Urban and Rural Differences in the Average Length of Time Between
           Hospital Discharge and the Start of Home Health Care in Days, for the 10 Most
           Common DRGs, 2004*


          DRG                                                                                                  Urban         Rural
          DRG 462—Rehabilitation                                                                                  2.6          2.7


          DRG 209—Major Joint and Limb Reattachment Procedures of                                                    6.9       6.1
          Lower Extremity


          DRG 127—Heart Failure and Shock                                                                            4.7       4.7


          DRG 089—Simple Pneumonia and Pleurisy, Age Greater                                                         5.1       4.9
          Than 17, With Complications or Comorbidities


          DRG 088—Chronic Obstructive Pulmonary Disease                                                              4.3       4.5


          DRG 148—Major Small and Large Bowel Procedures, With                                                       5.0       4.6
          Complications or Comorbidities


          DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                     6.3       6.5


          DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                                   6.1       5.8
          Age Greater Than 17, With Complications or Comorbidities


          DRG 107—Coronary Bypass With Cardiac Catherization                                                         3.5       3.1


          DRG 121—Circulatory Disorders With Acute Myocardial                                                        5.3       5.4
          Infarction and Major Complications, Discharged Alive


        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

        Source: OIG analysis of CMS’s National Claims History File, 2005.




OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4           31
    A P P E N D                    I X          ~        E         





           Table 15: Urban and Rural Differences in the Average Length of Time Between
           Hospital Discharge and the Start of Home Health Care in Days, for the 10 Most
           Common HHRGs, 2004*


          HHRG                                                                                                 Urban         Rural
          HBGJ (Clinical=low, Functional=mod, Service=min)                                                        3.2          3.5



          HCGL (Clinical=mod, Functional=mod, Service=mod)                                                           3.9       4.3



          HBGL (Clinical=low, Functional=mod, Service=mod)                                                           4.0       4.3



          HCGJ (Clinical=mod, Functional=mod, Service=min)                                                           3.4       3.7



          HAFJ (Clinical=min, Functional=low, Service=min)                                                           2.9       3.1



          HBFJ (Clinical=low, Functional=low, Service=min)                                                           3.1       3.3



          HAGJ (Clinical=min, Functional=mod, Service=min)                                                           3.1       3.5



          HCFJ (Clinical=mod, Functional=low, Service=min)                                                           3.3       3.7



          HAGL (Clinical=min, Functional=mod, Service=mod)                                                           3.8       4.4



          HAEJ (Clinical=min, Functional=min, Service=min)                                                           2.7       3.0



        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

        Source: OIG analysis of CMS’s National Claims History File, 2005.




OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4           32
    A P P E N D                    I X          ~        E         





           Table 16: Beneficiaries in Nonprofit and For-Profit Agencies for the 10 Most
           Common DRGs, Compared to All Beneficiaries, 2004*


          DRG                                                                                               Nonprofit        For-Profit
          DRG 462—Rehabilitation                                                                               52.8%           41.8%†


          DRG 209—Major Joint and Limb Reattachment Procedures of                                                 58.0%         34.4%
          Lower Extremity


          DRG 127—Heart Failure and Shock                                                                         59.2%         34.1%


          DRG 089—Simple Pneumonia and Pleurisy, Age Greater                                                      58.5%         33.7%
          Than 17, With Complications or Comorbidities


          DRG 088—Chronic Obstructive Pulmonary Disease                                                           57.7%         35.1%


          DRG 148—Major Small and Large Bowel Procedures, With                                                    61.6%         31.1%
          Complications or Comorbidities


          DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                  57.7%         35.7%


          DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                                56.6%         36.2%
          Age Greater Than 17, With Complications or Comorbidities


          DRG 107—Coronary Bypass With Cardiac Catherization                                                    62.9%†          31.1%


          DRG 121—Circulatory Disorders With Acute Myocardial                                                     61.5%         31.6%
          Infarction and Major Complications, Discharged Alive



          All Beneficiaries**                                                                                     57.6%         35.8%

        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

       **Note that 6.6 percent of beneficiaries were admitted to government home health agencies (HHA).

       †The proportion of beneficiaries with this DRG differed from the proportion of all beneficiaries by at least 5 percentage
       points, which we considered to be a large difference.

       Source: OIG analysis of CMS’s National Claims History File, 2005.




OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                33
    A P P E N D                    I X          ~        E         





          Table 17: Beneficiaries in Nonprofit and For-Profit Agencies for the 10 Most
          Common HHRGs, Compared to All Beneficiaries, 2004*


          HHRG                                                                                              Nonprofit        For-Profit
          HBGJ (Clinical=low, Functional=mod, Service=min)                                                    63.6%†           28.9%†



          HCGL (Clinical=mod, Functional=mod, Service=mod)                                                      47.8%†          45.9%†



          HBGL (Clinical=low, Functional=mod, Service=mod)                                                        54.5%         38.4%



          HCGJ (Clinical=mod, Functional=mod, Service=min)                                                        60.0%         33.4%



          HAFJ (Clinical=min, Functional=low, Service=min)                                                      69.0%†          24.2%†



          HBFJ (Clinical=low, Functional=low, Service=min)                                                      64.2%†          28.8%†



          HAGJ (Clinical=min, Functional=mod, Service=min)                                                      68.6%†          23.9%†



          HCFJ (Clinical=mod, Functional=low, Service=min)                                                        60.2%         33.2%



          HAGL (Clinical=min, Functional=mod, Service=mod)                                                        62.1%         31.2%



          HAEJ (Clinical=min, Functional=min, Service=min)                                                      68.7%†          25.0%†




          All Beneficiaries**                                                                                     57.6%         35.8%

        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

       **Note that 6.6 percent of beneficiaries were admitted to government HHAs.

       †The proportion of beneficiaries with this HHRG differed from the proportion of all beneficiaries by at least 5 percentage

       points, which we considered to be a large difference.

        Source: OIG analysis of CMS’s National Claims History File, 2005.




OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                34
    A P P E N D                    I X          ~        E         





Note that this table is for informational purposes only. It is not referenced in the report.


           Table 18: Nonprofit and For-Profit Differences in the Average Length of
           Hospital Stay in Days for the 10 Most Common DRGs, 2004*


          DRG                                                                                             Nonprofit          For-Profit
          DRG 462—Rehabilitation                                                                              12.2                12.4


          DRG 209—Major Joint and Limb Reattachment Procedures of                                                    4.3           4.5
          Lower Extremity


          DRG 127—Heart Failure and Shock                                                                            6.2           6.5


          DRG 089—Simple Pneumonia and Pleurisy, Age Greater                                                         6.7           7.2
          Than 17, With Complications or Comorbidities


          DRG 088—Chronic Obstructive Pulmonary Disease                                                              6.4           7.0


          DRG 148—Major Small and Large Bowel Procedures, With                                                     12.8           13.1
          Complications or Comorbidities


          DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                     7.0           7.2


          DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                                   5.5           5.9
          Age Greater Than 17, With Complications or Comorbidities


          DRG 107—Coronary Bypass With Cardiac Catherization                                                       10.2           10.6


          DRG 121—Circulatory Disorders With Acute Myocardial                                                        7.5           7.8
          Infarction and Major Complications, Discharged Alive


        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

        Source: OIG analysis of CMS’s National Claims History File, 2005.




OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                35
    A P P E N D                    I X          ~        E         





Note that this table is for informational purposes only. It is not referenced in the report.


           Table 19: Nonprofit and For-Profit Differences in the Average Length of
           Hospital Stay in Days for the 10 Most Common HHRGs, 2004*


          HHRG                                                                                            Nonprofit          For-Profit
          HBGJ (Clinical=low, Functional=mod, Service=min)                                                     6.6                 6.7



          HCGL (Clinical=mod, Functional=mod, Service=mod)                                                           7.4           7.3



          HBGL (Clinical=low, Functional=mod, Service=mod)                                                           7.2           7.3



          HCGJ (Clinical=mod, Functional=mod, Service=min)                                                           7.0           7.1



          HAFJ (Clinical=min, Functional=low, Service=min)                                                           6.3           6.2



          HBFJ (Clinical=low, Functional=low, Service=min)                                                           6.5           6.5



          HAGJ (Clinical=min, Functional=mod, Service=min)                                                           6.8           6.8



          HCFJ (Clinical=mod, Functional=low, Service=min)                                                           6.8           6.8



          HAGL (Clinical=min, Functional=mod, Service=mod)                                                           7.8           7.7



          HAEJ (Clinical=min, Functional=min, Service=min)                                                           6.0           6.2



        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

        Source: OIG analysis of CMS’s National Claims History File, 2005.




OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                36
    A P P E N D                     I X          ~        E        





             Table 20: Nonprofit and For-Profit Differences in the Average Length of Time
             Between Hospital Discharge and the Start of Home Health Care in Days, for the
             10 Most Common DRGs, 2004*


             DRG                                                                                          Nonprofit          For-Profit
             DRG 462—Rehabilitation                                                                            2.5                 2.9


             DRG 209—Major Joint and Limb Reattachment Procedures of                                                 6.5           7.0
             Lower Extremity

                                                                                                                         †               †
             DRG 127—Heart Failure and Shock                                                                       4.2             5.5

                                                                                                                         †               †
             DRG 089—Simple Pneumonia and Pleurisy, Age Greater                                                    4.7             5.7
             Than 17, With Complications or Comorbidities

                                                                                                                         †               †
             DRG 088—Chronic Obstructive Pulmonary Disease                                                         4.0             5.1


             DRG 148—Major Small and Large Bowel Procedures, With                                                    4.7           5.4
             Complications or Comorbidities

                                                                                                                         †               †
             DRG 014—Intracranial Hemorrhage or Cerebral Infarction                                                5.9             7.2

                                                                                                                         †               †
             DRG 296—Nutrition and Miscellaneous Metabolic Disorders,                                              5.5             6.9
             Age Greater Than 17, With Complications or Comorbidities


             DRG 107—Coronary Bypass With Cardiac Catherization                                                      3.2           3.9

                                                                                                                         †               †
             DRG 121—Circulatory Disorders With Acute Myocardial                                                   4.9             6.2
             Infarction and Major Complications, Discharged Alive


        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

        †
            Note that these DRGs differed by 1 day or more. 


        Source: OIG analysis of CMS’s National Claims History File, 2005. 





OEI-02-04-00260                       MEDICARE BENEFICIARY ACCESS        TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                   37
    A P P E N D                    I X          ~        E         





Note that this table is for informational purposes only. It is not referenced in the report.


           Table 21: Nonprofit and For-Profit Differences in the Average Length of Time
           Between Hospital Discharge and the Start of Home Health Care in Days, for the
           10 Most Common HHRGs, 2004*


          HHRG                                                                                            Nonprofit          For-Profit
          HBGJ (Clinical=low, Functional=mod, Service=min)                                                     3.1                 3.6



          HCGL (Clinical=mod, Functional=mod, Service=mod)                                                           3.8           4.1



          HBGL (Clinical=low, Functional=mod, Service=mod)                                                           3.9           4.2



          HCGJ (Clinical=mod, Functional=mod, Service=min)                                                           3.2           3.9



          HAFJ (Clinical=min, Functional=low, Service=min)                                                           2.8           3.3



          HBFJ (Clinical=low, Functional=low, Service=min)                                                           2.9           3.6



          HAGJ (Clinical=min, Functional=mod, Service=min)                                                           3.1           3.5



          HCFJ (Clinical=mod, Functional=low, Service=min)                                                           3.1           4.0



          HAGL (Clinical=min, Functional=mod, Service=mod)                                                           3.8           4.1



          HAEJ (Clinical=min, Functional=min, Service=min)                                                           2.5           3.3



        *Note that in this analysis the year is April 1, 2003, to March 31, 2004.

        Source: OIG analysis of CMS’s National Claims History File, 2005.




OEI-02-04-00260                     MEDICARE BENEFICIARY ACCESS          TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4                38
    A G     E N   C Y     C O     M M E N T                 S
  Δ         A C K N O W L E D G M E N T S                                                      



                        This report was prepared under the direction of Jodi Nudelman,
                        Regional Inspector General for Evaluation and Inspections in the New
                        York regional office. Other principal Office of Evaluation and
                        Inspections staff who contributed include:

                        Vincent Greiber, Team Leader
                        Natasha Besch-Turner, Program Analyst

                        Sonjeya Fitzgerald, Program Analyst

                        Nicole Gillette, Program Analyst

                        Tricia Davis, Director, Medicare and Medicaid Branch

                        Sandy Khoury, Program Specialist



                        Technical Assistance

                        Barbara Tedesco, Mathematical Statistician

                        Scott Horning, Program Analyst




OEI-02-04-00260         MEDICARE BENEFICIARY ACCESS   TO   H O M E H E A LT H A G E N C I E S : 2 0 0 4   39
